                Additional Actions Are Needed to Establish
                  and Maintain Controls Over Computer
                     Hardware and Software Changes

                                  December 2003

                       Reference Number: 2004-20-026




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    December 16, 2003


       MEMORANDUM FOR CHIEF INFORMATION OFFICER


       FROM:                          Gordon C. Milbourn III
                                      Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report – Additional Actions Are Needed to Establish
                                     and Maintain Controls Over Computer Hardware and Software
                                     Changes (Audit # 200320015)

       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       configuration management (CM) process for computer hardware and software.1 The
       overall objective of this review was to determine whether the IRS’ Modernization and
       Information Technology Services (MITS) organization effectively implemented an
       enterprise-wide CM process.
       The IRS is dependent on a large collection of computer systems with complex
       interdependencies among a network of mainframe computers, mid-range computers,
       individual computers, several hundred vendor-supplied software products, and millions
       of lines of computer code. The MITS organization is currently modernizing,2
       consolidating, and maintaining these computer systems to support the mission of the
       IRS. Responsibility for managing these computer systems is divided among the MITS
       organizations as follows:
       •   The Information Technology Services (ITS) organization develops, operates, and
           maintains computer hardware and software that supports the production
           environment.
       •   The Business Systems Modernization Office (BSMO) acquires and delivers new
           computer hardware and software for the IRS’ modernized business processes.

       1
         CM is a discipline that applies technical and administrative direction and surveillance to identify and document the
       functional and physical characteristics of a piece of hardware or software, control changes to those characteristics
       and their related documentation, record and report change processing and implementation status, and verify
       compliance with specified requirements.
       2
         The Business Systems Modernization program is modernizing the IRS’ business processes and computer
       technology.
                                                         2

Among the disciplines needed to manage and coordinate these efforts is an integrated
CM process to ensure that the integrity and consistency of the IRS’ computer systems
are maintained throughout their life cycles. The CM process systematically identifies
and baselines3 the items that make up a system (identification), formally controls any
modifications to those items (control), reports on the status of the CM process (status
accounting), and ensures that baseline configurations are implemented (audit).4
In summary, the MITS organization has made progress in defining and establishing an
enterprise-wide CM process through the issuance of a CM Directive that describes the
CM process to be used throughout the MITS organization, and standard operating
procedures (e.g., configuration control boards, configuration items and baselines, and
configuration control). The MITS organization has chartered a Configuration
Management Working Group to establish, maintain, and improve the CM process.
However, the CM functions (i.e., identification, control, status accounting, and audit)
have not been uniformly implemented within the MITS organization. An integrated,
enterprise-wide implementation of the CM process within the MITS organization is
particularly important for modernized systems that will migrate in stages or releases5 to
ensure computer system changes are properly managed throughout their life cycles. In
addition, this process provides a means to document, communicate, and coordinate
system development and production CM baselines between the BSMO and the ITS
organizations. For example, as a result of CM control weaknesses, the Enterprise
Systems Management (ESM) project incurred additional contractor costs of
approximately $216,500 and a 4-month schedule delay to rollout ESM Release 2.1.
Without an integrated and uniform CM process, there is an increased potential that
modernized and existing systems will require extensive rework resulting in additional
costs, schedule delays, and other risks to the IRS’ computer operations (e.g., system
outages and data corruption).
The implementation deficiencies found in the MITS organization’s CM processes
occurred because the MITS CM Directive and procedures did not establish executive
level responsibility that would ensure that:
•   The CM processes were implemented throughout the ITS organization and
    coordinated with the BSMO.
•   Deficiencies identified in internal CM assessments were appropriately addressed.



3
  A baseline is a configuration identification document or set of such documents formally designated and fixed at a
specific time during the life cycle. Baselines, plus approved changes, constitute the current configuration.
4
  See Appendix V for a diagram of these four CM functions.
5
  The BSMO systems that are scheduled to migrate to the production environment during Fiscal Years 2003 – 2005
are the Enterprise Systems Management (ESM), Integrated Financial System (IFS), Modernized e-File, e-Services,
Custodial Accounting Project (CAP), Human Resources (HR) Connect, Internet Employee Identification Number,
Internet Refund/Fact of Filing Project, Security Audit and Analysis System, and Customer Account Data Engine
(CADE). The following systems will be migrated in stages: ESM, IFS, Modernized e-File, e-Services, CAP,
HR Connect, and CADE.
                                                        3

•     The different CM software6 used by the MITS organization facilitated
      enterprise-wide CM.
•     Policies were established defining authority levels and threshold criteria to approve
      and control production changes in the ITS organization.
To promote the establishment of an integrated MITS organization CM process, we
recommended that the Chief Information Officer (CIO) modify the MITS CM Directive
and procedures to: 1) assign responsibility for ensuring that MITS CM processes are
implemented throughout the ITS organization and coordinated with the BSMO and that
CM deficiencies are appropriately addressed; and 2) establish governance policies,
similar to those used by the BSMO,7 for defining the authority levels and threshold
criteria to approve and control changes to the production environment in the ITS
organization. Additionally, we recommended that the CIO develop a transition plan to
implement standardized Enterprise Architecture compliant CM software to be used
throughout the MITS organization to facilitate CM on an enterprise-wide level.
Management’s Response: IRS management agreed with our recommendations. The
MITS organization will revalidate its CM Directive to address organizational
responsibility, governance policy, and needed improvements in the Configuration
Control Board (CCB) structure. In addition, management will address the establishment
of governance policies and threshold criteria to approve and control changes to the ITS
production environment while establishing plans to organize separate CCBs for the ITS
and BSMO organizations. Regarding CM software, the MITS organization will identify
acceptable CM software and publish applicable guidance upon the completion of
ongoing CM software assessments within the ITS organization. Management’s
complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.




6
    Examples include Computer Associates Endevor, IBM Rational Suite, and in-house developed databases.
7
    BSM Authority Levels and Threshold Criteria Directive, dated September 6, 2002.
                     Additional Actions Are Needed to Establish and Maintain
                     Controls Over Computer Hardware and Software Changes




                                                Table of Contents


Background ...............................................................................................Page 1
Progress Has Been Made in Implementing Configuration Management
Processes..................................................................................................Page 2
Additional Actions Are Needed to Establish Integrated, Enterprise-Wide
Configuration Management Processes......................................................Page 4
         Recommendations 1 and 2: ........................................................... Page 9

Appendix I – Detailed Objective, Scope, and Methodology .......................Page 10
Appendix II – Major Contributors to This Report........................................Page 12
Appendix III – Report Distribution List .......................................................Page 13
Appendix IV – Outcome Measures ............................................................Page 14
Appendix V – Overview of Configuration Management Functions ............Page 15
Appendix VI – Management’s Response to the Draft Report ....................Page 16
             Additional Actions Are Needed to Establish and Maintain
             Controls Over Computer Hardware and Software Changes

                               The Internal Revenue Service (IRS) is dependent on a large
Background
                               collection of computer systems with complex
                               interdependencies among a network of mainframe
                               computers, mid-range computers, individual computers,
                               several hundred vendor-supplied software products, and
                               millions of lines of computer code. The IRS’
                               Modernization and Information Technology Services
                               (MITS) organization is currently modernizing,1
                               consolidating, and maintaining these computer systems to
                               support the IRS’ mission. Responsibility for managing
                               these computer systems is divided among the MITS
                               organizations as follows:
                               •   The Information Technology Services (ITS)
                                   organization develops, operates, and maintains computer
                                   hardware and software that supports computer systems
                                   in production.
                               •   The Business Systems Modernization Office (BSMO)
                                   acquires and delivers new computer hardware and
                                   software for the IRS’ modernized business processes.
                               An integrated, enterprise-wide configuration
                               management (CM)2 process is essential for ensuring that the
                               integrity and consistency of the IRS’ computer systems are
                               maintained throughout their life cycles. The purpose of CM
                               is to systematically identify and baseline3 the items that
                               make up a system (identification), formally control any
                               modifications to those items (control), report on the status of




                               1
                                 The Business Systems Modernization program is modernizing the IRS’
                               business processes and computer technology.
                               2
                                 CM is a discipline that applies technical and administrative direction
                               and surveillance to identify and document the functional and physical
                               characteristics of a piece of hardware or software, control changes to
                               those characteristics and their related documentation, record and report
                               change processing and implementation status, and verify compliance
                               with specified requirements.
                               3
                                 A baseline is a configuration identification document or set of such
                               documents formally designated and fixed at a specific time during the
                               life cycle. Baselines, plus approved changes, constitute the current
                               configuration.
                                                                                               Page 1
                 Additional Actions Are Needed to Establish and Maintain
                 Controls Over Computer Hardware and Software Changes

                                   the CM process (status accounting), and ensure that baseline
                                   configurations are implemented (audit).4
                                   Both the Treasury Inspector General for Tax Administration
                                   (TIGTA) and the General Accounting Office (GAO) have
                                   issued reports5 on the IRS’ Business Systems Modernization
                                   efforts that commented on the MITS organization’s CM
                                   process. Our report focuses on the implementation of the
                                   CM processes throughout the MITS organization and on
                                   selected modernization projects that had migrated from the
                                   BSMO to support and maintenance within the ITS
                                   organization. Our audit work in the Office of Security
                                   Services was limited due to the anticipated restructuring of
                                   that office as part of the realignment of the IRS’
                                   management structure.6 Personnel from the Office of
                                   Security Services indicated that they plan to place security
                                   policy documentation under CM control; therefore, no
                                   additional fieldwork was performed in that office.
                                   Audit work was conducted in the MITS organization at the
                                   IRS National Headquarters in New Carrollton, Maryland,
                                   from May through September 2003. The audit was
                                   conducted in accordance with Government Auditing
                                   Standards. Detailed information on the audit objective,
                                   scope, and methodology is presented in Appendix I. Major
                                   contributors to the report are listed in Appendix II.
                                   MITS organization management has recognized the need to
Progress Has Been Made in
                                   institutionalize an enterprise-wide CM process throughout
Implementing Configuration
                                   their organization and issued a CM directive in
Management Processes
                                   August 2002 to support that need. Management has taken

                                   4
                                     See Appendix V for a diagram detailing the interrelationship of these
                                   four CM functions.
                                   5
                                     TIGTA report, Modernization Project Teams Need to Follow Key
                                   Systems Development Processes (Reference Number 2002-20-025,
                                   dated November 2001), and GAO reports, Business Systems
                                   Modernization: IRS Needs to Better Balance Management Capacity
                                   with Systems Acquisition Workload (GAO/AIMD-02-356, dated
                                   February 2002), and Business Systems Modernization: IRS Has Made
                                   Significant Progress in Improving Its Management Controls, but Risks
                                   Remain (GAO/AIMD-03-768, dated June 2003).
                                   6
                                     The IRS announced on May 22, 2003, through Press Release
                                   Statement Number IR-2003-67, a realignment of the IRS’ management
                                   structure.
                                                                                                   Page 2
Additional Actions Are Needed to Establish and Maintain
Controls Over Computer Hardware and Software Changes

                  several specific actions to implement this directive as well
                  as an enterprise-wide CM process. Specifically, the MITS
                  organization has taken the following actions:
                  •   Chartered a MITS Configuration Management Working
                      Group (CMWG) to establish, maintain, and improve
                      CM processes, procedures, and techniques to be used
                      throughout the MITS organization.
                  •   Issued various CM standard operating procedures
                      (e.g., configuration control boards [CCB],7 configuration
                      items [CI]8 and baselines, configuration control, and
                      configuration management process compliance
                      assessments).
                  •   Conducted CM process compliance assessments of eight
                      BSMO projects to evaluate whether CM policy and
                      procedures were being followed.
                  •   Chartered a MITS CCB as the authority for receiving,
                      reviewing, and approving proposed system change
                      requests and changes to system baselines that have a
                      cost impact that exceeds the dollar threshold and
                      authority levels established for lower level project
                      CCBs. The MITS organization CCB is also intended to
                      be the forum to resolve conflicts such as those resulting
                      from request impact analysis and authority issues that
                      occur at or among the subordinate CCBs for individual
                      projects.
                  •   Chartered project level CCBs within the BSMO, such as
                      the Internet Refund/Fact of Filing (IRFOF) Project and
                      the Infrastructure Modernization Project.
                  •   Issued a directive9 that defined the BSMO’s authority
                      levels (e.g., for BSMO project level CCBs) and

                  7
                    A CCB is a group composed of project stakeholders, technical
                  representatives, and CM representatives with the authority to review and
                  dispose of requests for changes to configuration items within the board’s
                  statement of scope.
                  8
                    A configuration item is an aggregation of hardware, software, and
                  documentation, which satisfies an end use function, is designated for
                  CM control, and is treated as a single entity in the CM process.
                  9
                    BSM Authority Levels and Threshold Criteria Directive, dated
                  September 6, 2002.
                                                                                   Page 3
                  Additional Actions Are Needed to Establish and Maintain
                  Controls Over Computer Hardware and Software Changes

                                         threshold criteria for changing BSMO project baselines
                                         for schedule, cost, or requirements. For example, the
                                         BSMO Infrastructure Modernization Project CCB has
                                         the authority for approving proposed change requests
                                         that affect infrastructure modernization projects with a
                                         cost impact threshold of less than $500,000, and those
                                         above this level would be forwarded to a higher level
                                         CCB.
                                    •    Chartered organizational level CCBs within ITS (e.g.,
                                         for the Detroit, Martinsburg, and Tennessee Computing
                                         Centers).
                                    •    Established the Office of Configuration Management
                                         (OCM) within the BSMO, whose chief, as chair of the
                                         MITS CMWG, is responsible for establishing,
                                         maintaining, and improving CM processes and
                                         procedures throughout the MITS organization.
                                    The ITS organization has an effort underway to align the
                                    existing computing center CM processes with the Triplex
                                    Strategy.10 Further, the BSMO has developed a CM training
                                    plan, developed CM training courses, and held initial CM
                                    classes for the MITS organization.
                                    Our review identified that the MITS organization has made
                                    progress in implementing a CM process; however, as
                                    explained below, further actions are needed to establish and
                                    integrate uniform CM implementation processes across the
                                    MITS organization.
                                    Treasury Directive 84-01, Information Systems Life Cycle
Additional Actions Are Needed to
                                    Manual, dated March 2002, requires CM to be used
Establish Integrated,
                                    throughout every project’s life cycle. It also defines the four
Enterprise-Wide Configuration
                                    CM functions of identification, control, audit, and status
Management Processes
                                    accounting. The IRS has incorporated these requirements
                                    into its systems life cycle methodologies (Enterprise Life
                                    Cycle [ELC] and ELC-Lite), the Enterprise
                                    Architecture (EA), and the MITS organization CM
                                    Directive and procedures. The MITS organization CM
                                    Directive also cites the American National Standards

                                    10
                                      The Triplex Strategy is an effort to improve the three computing
                                    centers’ operations efficiency and effectiveness, including disaster
                                    recovery capabilities.
                                                                                                      Page 4
Additional Actions Are Needed to Establish and Maintain
Controls Over Computer Hardware and Software Changes

                  Institute/Electronic Industries Alliance Standard 649,
                  National Consensus Standard for Configuration
                  Management, an industry CM best practice. Additionally,
                  the Office of Management and Budget Circular A-123,
                  Management Accountability and Control, dated July 1995,
                  requires that the appropriate authority, responsibility, and
                  accountability are defined and delegated to accomplish the
                  implementation of the CM process and that an appropriate
                  organizational structure is established to effectively carry
                  out these CM responsibilities.
                  However, the CM functions outlined in Treasury
                  Directive 84-01 have not been uniformly implemented
                  within the MITS organization. Specifically, the following
                  areas could be improved for each of the four required CM
                  functions:
                       Identification: The IRS identified CIs for the current
                       production environment that affected modernization
                       project releases in 2002. However, not all ITS divisions
                       have identified and baselined the CIs for their
                       production systems. An OCM contractor was
                       identifying the CIs; however, the effort was not
                       completed because funding for the contractors was cut
                       in February 2003. An effective CM process requires
                       that CIs be identified. These items must be identified
                       and controlled prior to establishing system baselines for
                       production systems that will be affected by BSMO
                       projects.
                       Control: The BSMO has chartered project level CCBs
                       to control changes to the BSMO project baselines and
                       established threshold criteria for decision-making by the
                       project and MITS CCBs, as well as Executive Steering
                       Committees. However, the ITS organization has not
                       chartered lower level CCBs, except for the Enterprise
                       Operations Services’ (EOS) Computing Center CCBs,
                       which are change management11 rather than CM
                       oriented. The EOS plans to establish a CM process as



                  11
                    Change management is the process of controlling changes to a system
                  to ensure that only authorized changes are applied.
                                                                                Page 5
Additional Actions Are Needed to Establish and Maintain
Controls Over Computer Hardware and Software Changes

                       part of its Triplex initiative. An effective CM process
                       requires a CCB to set and control baselines.
                       Status Accounting and Audit: The BSMO is performing
                       the CM status accounting and audit functions. The
                       OCM performed CM compliance assessments of several
                       BSMO projects and identified problems with at least one
                       of these functions in each assessment. Although the
                       BSMO project managers have the responsibility to
                       correct project specific CM process issues, the OCM
                       does not have the authority to ensure that the issues are
                       corrected. Also, the ITS organization is not performing
                       the status accounting and audit functions because it has
                       not finished establishing the identification and control
                       processes.
                  Without an integrated, enterprise-wide CM process, the IRS
                  cannot adequately assure that changes to its computer
                  system configurations are properly managed throughout
                  their life cycles. An integrated, enterprise-wide
                  implementation of the CM process within the MITS
                  organization is particularly important for modernized
                  systems that will migrate in stages or releases12 to ensure
                  computer system changes are properly managed throughout
                  their life cycles. In addition, this process provides a means
                  to document, communicate, and coordinate system
                  development and production CM baselines between the
                  BSMO and the ITS organizations.
                  For example, the Enterprise Systems Management (ESM)
                  project experienced schedule delays and incurred additional
                  costs because it did not have an integrated, enterprise-wide
                  CM process. For the ESM project, such a process is
                  necessary since different organizations are responsible for


                  12
                    The BSMO systems that are scheduled to migrate to the production
                  environment during Fiscal Years 2003 – 2005 are the Enterprise
                  Systems Management (ESM), Integrated Financial System (IFS),
                  Modernized e-File, e-Services, Custodial Accounting Project (CAP),
                  Human Resources (HR) Connect, Internet Employee Identification
                  Number, IRFOF, Security Audit and Analysis System, and Customer
                  Account Data Engine (CADE). The following systems will be migrated
                  in stages: ESM, IFS, Modernized e-File, e-Services, CAP, HR Connect,
                  and CADE.
                                                                               Page 6
Additional Actions Are Needed to Establish and Maintain
Controls Over Computer Hardware and Software Changes

                  developing and deploying ESM releases. Specifically, the
                  ESM team from the IRS’ PRIME Business Systems
                  Modernization contractor (PRIME) is responsible for
                  development, and the ITS’ End-User Equipment and
                  Services (EUES) organization is responsible for
                  deployment.
                  In February 2003, during the ESM Release 2.1 deployment,
                  the EUES organization, with support from the PRIME,
                  upgraded the ESM production environment. During this
                  upgrade, changes were introduced to the production
                  environment without adequate testing or adherence to
                  CM processes. As a result of these CM weaknesses, a
                  database server experienced serious, unexpected
                  performance problems. Resolution of the performance
                  problems delayed the implementation of ESM Release 2.1
                  for 4 months and increased the PRIME contractor’s cost by
                  approximately $216,500 since this work fell outside the
                  scope of the PRIME contractor’s existing task orders.
                  The ESM system is just one of several modernized systems
                  that will be migrated in stages over the next several years.
                  Between Fiscal Year (FY) 2003 and FY 2005, the IRS
                  scheduled nine other modernized systems to migrate to the
                  production environment. These modernized systems
                  include new tax administration and financial management
                  systems. These modernized systems not only have
                  interdependencies with each other, but also with the existing
                  IRS systems. Consequently, delays in one project can cause
                  delays in others. For example, the delays in implementing
                  ESM Release 2.1 delayed full management reporting
                  functionality for the IRFOF system.
                  Several factors contributed to the implementation
                  deficiencies found in the MITS organization. First, the
                  MITS organization CM Directive and procedures did not
                  establish executive level responsibility that would ensure
                  that the MITS organization CM processes are implemented
                  throughout the ITS organization and coordinated with the
                  BSMO, and that deficiencies identified in internal CM
                  assessments are appropriately addressed. Second,
                  governance policy has not been established for defining
                  authority levels and threshold criteria to review, approve,

                                                                        Page 7
Additional Actions Are Needed to Establish and Maintain
Controls Over Computer Hardware and Software Changes

                  and control production changes in the ITS organization or
                  for elevating change requests from the ITS organization to a
                  higher-level CCB or committee for approval or coordination
                  such as that found in the BSMO organization.
                  In addition, some ITS organizations use different CM
                  software that does not comply with the current EA and may
                  not readily facilitate the coordination of system baseline
                  information on an enterprise-wide CM level. The current
                  revision of the IRS’ EA, dated July 9, 2003, includes an
                  Enterprise Standards Profile that identifies commercial
                  off-the-shelf software products for use in various computer
                  environments. However, prior EA versions and the MITS
                  organization CM policies and procedures did not identify
                  approved CM software for enterprise-wide use. As a result,
                  some ITS organizations use CM software that does not
                  comply with the current EA. The use of non-compliant
                  software to automate the CM process places the ITS
                  organizations at risk of not being able to effectively
                  communicate and coordinate changes on the production
                  environment with affected organizations and projects, such
                  as BSMO projects that have production environment
                  interdependencies. Since a variety of CM software is
                  currently being used, a period of transition will be needed to
                  review and establish the CM software to be used and
                  integrated throughout the MITS organization.
                  For example, a contributing cause for not adhering to CM
                  processes for the ESM project was the use of different
                  automated software to manage changes for the project. The
                  BSMO and the PRIME use IBM’s Rational software for
                  configuration management, and the EUES organization uses
                  IRS developed software to control change requests.
                  Without an integrated and uniform CM process, there is an
                  increased potential that modernized and existing systems
                  will require extensive rework resulting in additional costs,
                  schedule delays, and other risks to the IRS’ computer
                  operations (e.g., system outages and data corruption).




                                                                         Page 8
Additional Actions Are Needed to Establish and Maintain
Controls Over Computer Hardware and Software Changes

                  Recommendations

                  To promote the establishment of an integrated MITS
                  organization CM process, we recommend that the Chief
                  Information Officer:
                  1. Modify the MITS organization CM Directive and
                     procedures to: a) assign organizational responsibility for
                     ensuring that MITS organization CM processes are
                     implemented throughout the ITS organization and
                     coordinated with the BSMO and that CM deficiencies
                     are appropriately addressed; and b) establish governance
                     policies, similar to those used by the BSMO, for
                     defining the authority levels and threshold criteria to
                     approve and control changes to the production
                     environment in the ITS organization.
                  Management’s Response: The MITS organization will
                  revalidate its CM Directive to address organizational
                  responsibility, governance policy, and needed improvements
                  in the CCB structure. In addition, management will address
                  the establishment of governance policies and threshold
                  criteria to approve and control changes to the ITS
                  production environment while establishing plans to organize
                  separate CCBs for the ITS and BSMO organizations.
                  2. Develop a transition plan to implement standardized
                     EA-compliant CM software to be used throughout the
                     MITS organization to facilitate CM on an enterprise-
                     wide level.
                  Management’s Response: The MITS organization will
                  identify acceptable CM software and publish applicable
                  guidance upon the completion of ongoing CM software
                  assessments within the ITS organization.




                                                                        Page 9
                    Additional Actions Are Needed to Establish and Maintain
                    Controls Over Computer Hardware and Software Changes

                                                                                                      Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Modernization and
Information Technology Services (MITS) organization effectively implemented an
enterprise-wide configuration management (CM) process.1
As part of this review, we interviewed personnel and reviewed CM documentation throughout
the MITS organizations of Business Systems Modernization Office (BSMO), Information
Technology Services (ITS), Business Planning and Assurance, and Security Services. Within the
BSMO, we interviewed personnel from the Office of Configuration Management and Systems
Engineering & Integration Division as well as the project teams for the Enterprise Systems
Management (ESM) and Internet Refund/Fact of Filing (IRFOF) projects. Within the ITS
organization, we interviewed personnel from the Infrastructure Architecture and Engineering,
Business Systems Development, Enterprise Operations Services, End User Equipment and
Services, Enterprise Networks, and Web Services functions.
This audit assessed the CM processes throughout the MITS organization and selected projects
that migrated from acquisition by the BSMO to support and maintenance by the ITS
organization. The ESM and IRFOF projects were judgmentally selected from the population of
BSMO projects based on one project having been fully migrated and another being migrated in
stages or releases to the production environment. The IRFOF Project was selected as a project
that had migrated from the BSMO environment to the production environment, which is operated
and supported by the ITS organization. The ESM project was selected as a project that migrated
in stages or releases since a release was already being supported in the ITS’ production
environment and future releases were being developed by the IRS’ PRIME Business Systems
Modernization contractor that is overseen by the BSMO.
To accomplish the overall objective for this audit, we:
I.     Identified applicable Federal Government standards and industry best practices that guide
       the CM process. This included Department of the Treasury directives, Office of
       Management and Budget circulars, and information technology standards organization
       documents.


1
 CM is a discipline that applies technical and administrative direction and surveillance to identify and document the
functional and physical characteristics of a piece of hardware or software, control changes to those characteristics
and their related documentation, record and report change processing and implementation status, and verify
compliance with specified requirements.




                                                                                                            Page 10
                 Additional Actions Are Needed to Establish and Maintain
                 Controls Over Computer Hardware and Software Changes

II.    Evaluated the ITS Executive and the BSMO Office of Configuration Management roles
       and responsibilities for administering the enterprise-wide CM process.
III.   Evaluated the policies and procedures supporting the enterprise-wide CM process.




                                                                                          Page 11
               Additional Actions Are Needed to Establish and Maintain
               Controls Over Computer Hardware and Software Changes

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Theodore Grolimund, Audit Manager
Kevin Burke, Senior Auditor
Christopher Funke, Senior Auditor
Frank Greene, Senior Auditor
Michael Howard, Senior Auditor
Tina Wong, Senior Auditor
Olivia Jasper, Auditor




                                                                                         Page 12
              Additional Actions Are Needed to Establish and Maintain
              Controls Over Computer Hardware and Software Changes

                                                                         Appendix III


                              Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Commissioner for Modernization OS:CIO:B
Chief, Information Technology Services OS:CIO:I
Chief, Mission Assurance OS:MA
Director, Business Systems Development OS:CIO:I:BSD
Acting Director, End User Equipment and Services OS:CIO:I:EU
Director, Enterprise Networks OS:CIO:I:EN
Director, Enterprise Operations OS:CIO:I:EO
Director, Infrastructure, Architecture and Engineering OS:CIO:I:IA
Director, Portfolio Management OS:CIO:R:PM
Director, Web Services OS:CIO:I:W
Manager, Enterprise Systems Management OS:CIO:I:EU:ESM
Manager, Office of Configuration Management OS:CIO:B:MP:CM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
        Associate Commissioner for Modernization OS:CIO:B
        Chief, Information Technology Services OS:CIO:I
        Chief, Mission Assurance OS:MA
        Director, Business Systems Development OS:CIO:BSD
        Director, End User Equipment and Services OS:CIO:I:EU
        Director, Enterprise Networks OS:CIO:I:EN
        Director, Enterprise Operations Services OS:CIO:I:EOS
        Director, Infrastructure, Architecture and Engineering OS:CIO:I:IA
        Director, Web Services OS:CIO:I:W
        Program Manager, Program Oversight and Coordination OS:CIO:R:PM:PO




                                                                              Page 13
                    Additional Actions Are Needed to Establish and Maintain
                    Controls Over Computer Hardware and Software Changes

                                                                                                    Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
    •    Inefficient use of resources – Actual; $216,500 (see page 4).
Methodology Used to Measure the Reported Benefit:
Not having an integrated, enterprise-wide Configuration Management (CM) process1 was
demonstrated by the schedule delays and increased costs of the Enterprise Systems
Management (ESM) project. The ESM Release 2.1 was developed by the Internal Revenue
Service’s (IRS) PRIME Business Systems Modernization contractor (PRIME) and deployed by
the Information Technology Services’ End-User Equipment and Services (EUES) organization.
In February 2003, during the ESM 2.1 deployment, the EUES organization, with support from
the PRIME, upgraded an ESM production environment.
During this upgrade, changes were introduced to the production environment without adequate
testing or adherence to CM processes and, as a result, a database server experienced serious,
unexpected performance problems. A contributing cause for not adhering to CM processes was
the use of different automated software to manage changes for the ESM project. The Business
Systems Modernization Office and the PRIME use IBM’s Rational software for configuration
management and the EUES organization uses IRS-developed software to control change
requests. Resolution of the performance problems delayed the implementation of ESM
Release 2.1 for 4 months and increased the PRIME contractor’s cost by approximately $216,500
since this work fell outside the scope of their existing task orders. This cost was documented in
a notification of change letter to the PRIME contract, sent to the IRS on April 11, 2003.




1
 CM is a discipline that applies technical and administrative direction and surveillance to identify and document the
functional and physical characteristics of a piece of hardware or software, control changes to those characteristics
and their related documentation, record and report change processing and implementation status, and verify
compliance with specified requirements.
                                                                                                            Page 14
                      Additional Actions Are Needed to Establish and Maintain
                      Controls Over Computer Hardware and Software Changes

                                                                                               Appendix V


                           Overview of Configuration Management Functions
    (Adapted From the Modernization and Information Technology Services (MITS) Configuration
    Management Plan, Version 2.1, October 8, 2001)

                                                       Identification
                                                       •   Assign a unique designator to MITS products.
                                                       •   Develop and maintain Application Group
                                                           configuration management (CM) Logs.
                                                       •   Develop and maintain a CM Master Log.
                                                       •   Establish Configuration Item (CI) Index.
                                                       •   Verify identification for CIs, technical
                                                           documentation, and baselines.
                                                       •   Assign a unique tracking number to Request for
                                                           Information Services and Change Requests.




                                                       Control
                                                       •   Receive and place MITS CIs and technical
Configuration                                              documentation in Internal Revenue Service
Management                                                 repositories thereby providing physical control.
                                                       •   Process requests for CIs and technical
•     Identification.                                      documentation.
•     Control.                                         •   Provide change request information.
•     Status Accounting.                               •   Assure that no unauthorized changes to
•     Reviews/Audits.                                      controlled products are made.
                                                       •   Deliver product/system releases from controlled
                                                           CIs and technical documentation including
                                                           associated changes to authorized baselines,
                                                           thus ensuring data integrity.




                                                       Status Accounting
                                                       •   Receive CIs and technical documentation for
                                                           entry into the Configuration Status Accounting
                                                           (CSA) System (i.e., data entry).
                                                       •   Generate CSA reports including metrics and
                                                           schedule information.



                                                       Reviews/Audits
                                                       •   Support and ensure that functional and physical
                                                           configuration audits are conducted as required.
                                                       •   Conduct internal CM Audits and Reviews.


                                                                                                      Page 15
Additional Actions Are Needed to Establish and Maintain
Controls Over Computer Hardware and Software Changes

                                                          Appendix VI


    Management’s Response to the Draft Report




                                                               Page 16
Additional Actions Are Needed to Establish and Maintain
Controls Over Computer Hardware and Software Changes




                                                          Page 17
Additional Actions Are Needed to Establish and Maintain
Controls Over Computer Hardware and Software Changes




                                                          Page 18
Additional Actions Are Needed to Establish and Maintain
Controls Over Computer Hardware and Software Changes




                                                          Page 19
